U.S. Department of the Interior
Office of Inspector General

                             Audit Report

        Billing and Collection Functions
          Virgin Islands Port Authority
       Government of the Virgin Islands




                            Report No. 01-I-303
                            March 2001
                                                                               V-IN-VIS-003-00-M


                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240




                                                                                    March 30, 2001

Mr. Gordon Finch
Executive Director
Virgin Islands Port Authority
Cyril E. King Airport
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on Billing and Collection Functions, Virgin Islands Port Authority,
         Government of the Virgin Islands (Report No. 01-I-303)

Dear Mr. Finch:

        This report presents the results of our audit of the billing and collection functions of the
Virgin Islands Port Authority.

        Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In addition,
the Office of Inspector General provides audit reports to the Congress.

       Please provide a response to this report by May 18, 2001. The response should
provide the information requested in Appendix 4 and should be addressed to our Caribbean
Regional Office, Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                                 Sincerely,



                                                 Roger La Rouche
                                                 Assistant Inspector General
                                                  for Audits

cc:   Honorable Charles W. Turnbull, Governor of the Virgin Islands
EXECUTIVE SUMMARY
                   The Virgin Islands Port Authority is an autonomous agency of the
BACKGROUND         Government of the Virgin Islands that manages the territory’s
                   municipal aviation and marine facilities and certain other real
                   properties which were transferred to it by the Federal
                   Government. The Port Authority’s operations are subject to laws
                   contained in the Virgin Islands Code and, with respect to airport
                   properties, regulations of the Federal Aviation Administration
                   contained in the Code of Federal Regulations. The audited
                   financial statements of the Port Authority reported that it
                   generated gross revenues of $36.1 million in fiscal year 1998
                   and $36.8 million in fiscal year 1999, primarily from the
                   assessment of user fees and rental charges at its aviation and
                   marine facilities. However, the Port Authority suffered a net loss
                   of $246,000 for fiscal year 1998 and had net income of $663,000
                   for fiscal year 1999.


                   The objective of the audit was to determine whether the Port
OBJECTIVE          Authority (1) managed property and facilities to maximize rental
                   and concession revenues; (2) accurately assessed and promptly
                   collected amounts owed by tenants, concessionaires, and other
                   users of Port Authority facilities; and (3) controlled cash
                   collections effectively.


                   The Port Authority needs to improve controls over lease
RESULTS IN BRIEF   management, the collection of delinquent accounts receivable, and
                   the collection and deposit of parking lot fees. Specifically:

                       - The Port Authority did not always obtain copies of sublease
                   agreements entered into by its tenants or collect the sublease fees
                   that the tenants were required to pay in accordance with their
                   lease agreements. As a result, sublease revenues totaling about
                   $10,600 were not realized for fiscal years 1998, 1999, and 2000.
                   In addition, lease agreements were not always properly executed,
                   tenants did not always maintain required liability insurance
                   coverage, rental increases were not always timely implemented,
                   and quarterly site inspections were not conducted by the Port
                   Authority’s Property Management Officers.

                       - The Port Authority did not effectively carry out collection
                   enforcement activities on delinquent accounts and, as of
                   April 2000, had 87 accounts totaling about $1.17 million that
                    were delinquent more than 90 days.            In addition, in
                    December 1998 and February 2000, the Port Authority’s Board
                    of Directors approved the write-off of 31 delinquent accounts
                    totaling $909,562 because the accounts were classified as
                    uncollectible.

                        - The Port Authority lacked assurance that all parking fees
                    were collected and deposited. The machines that stamped the
                    date and time onto tickets did not work at exit points at the
                    St. Thomas and St. Croix airports; attendants at the airport on
                    St. Thomas collected parking tickets and fees, prepared deposit
                    slips, and deposited the funds; and attendants at the airport on
                    St. Croix did not prepare any record of funds collected. We
                    estimated that, on a daily basis, at the St. Thomas airport about
                    1,250 parking tickets were issued but on the average only
                    315 tickets yielded cash collections. Although it is reasonable
                    for many tickets to be non-fee-generating, such as those for
                    taxicabs and short-term parkers, we could not verify the accuracy
                    of the collections because appropriate records were not
                    maintained.


                    We made 11 recommendations to the Virgin Islands Port
RECOMMENDATIONS     Authority to address the internal control weaknesses disclosed by
                    the audit.


                    The Executive Director of the Port Authority concurred with all
AUDITEE COMMENTS    11 recommendations and indicated that corrective actions had
AND OFFICE OF       been or would be taken. Based on the response, we consider
INSPECTOR GENERAL   one recommendation implemented and two recommendations
EVALUATION          resolved but not implemented. We requested additional
                    information for the eight remaining recommendations.




                                 2
CONTENTS
                   ................................................ 1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         7
RESULTS OF AUDIT   Lease Management Practices . . . . . . . . . . . . . . . . . . . . . . . .                     7
                   Collection Enforcement Activities . . . . . . . . . . . . . . . . . . . .                     11
                   Airport Parking Lot Collections . . . . . . . . . . . . . . . . . . . . . .                   13

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
RECOMMENDATIONS
                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            20
APPENDICES         2.   Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            21
                   3.   Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                 22
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . .                  43




                                        3
4
INTRODUCTION
                The Virgin Islands Port Authority is an autonomous agency of the
BACKGROUND      Government of the Virgin Islands that manages the territory’s
                municipal aviation and marine facilities and certain other real
                properties which were transferred to it by the Federal
                Government. The Port Authority was established in 1968 by Act.
                No. 2375 and is governed by a 9-member Board of Directors.
                The day-to-day operations of the Port Authority are headed by an
                Executive Director, who is appointed by the Board. The Port
                Authority has the power to acquire property and to construct,
                develop, improve, operate, and manage properties under its
                control.

                The Port Authority’s operations are subject to laws contained in
                the Virgin Islands Code (29 V.I.C. Chapter 10) and, with respect
                to airport properties, regulations of the Federal Aviation
                Administration contained in the Code of Federal Regulations
                (14 CFR Part 16). Among other provisions, these laws and
                regulations require the Port Authority to charge service and
                concession fees and rental rates that fully compensate it for the
                use of its facilities. Accordingly, the Port Authority levies a
                variety of fees for access to its aviation and marine facilities and
                for the use of its properties. The Port Authority also has a
                statutory responsibility to encourage the widest possible diversity
                of use for its facilities consistent with sound fiscal management.

                The Port Authority’s audited financial statements reported that it
                generated gross revenues of $36.1 million in fiscal year 1998 and
                $36.8 million in fiscal year 1999, primarily from the assessment
                of user fees and rental charges at its aviation and marine
                facilities. However, the Port Authority incurred a net loss of
                $246,000 for fiscal year 1998 and had net income of $663,000 for
                fiscal year 1999. In addition, as of September 30, 1999, the Port
                Authority had 292 receivable accounts totaling $5 million.


                The objective of the audit was to determine whether the Port
OBJECTIVE AND   Authority (1) managed property and facilities to maximize rental
SCOPE           and concession revenues; (2) accurately assessed and promptly
                collected amounts owed by tenants, concessionaires, and other
                users of Port Authority facilities; and (3) controlled cash
                collections effectively. The scope of the audit included a review
                of the Port Authority’s revenue transactions that occurred during
                fiscal years 1998 and 1999 and other periods as appropriate.


                              5
              To accomplish our audit objective, we reviewed the Port
              Authority’s Property Management Manual; interviewed Port
              Authority officials and reviewed minutes of board meetings; and
              reviewed files containing lease documents, accounting records
              pertaining to delinquent and inactive accounts, and ticket stubs
              and deposit records for the airport parking lots on St. Thomas and
              St. Croix.

              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records
              and other auditing procedures that were considered necessary
              under the circumstances. The "Standards" requires that we obtain
              sufficient, competent, and relevant evidence to afford a
              reasonable basis for our findings and conclusions.

              As part of our audit, we evaluated the system of internal controls
              at the Port Authority to the extent we considered necessary to
              accomplish the audit objective. Internal control weaknesses were
              identified in the areas of lease management practices, particularly
              with respect to subleases; prompt collection of amounts owed by
              users of Port Authority facilities; and controls over cash collected
              at the airport parking lots. These weaknesses are discussed in the
              Results of Audit section of this report. The recommendations, if
              implemented, should improve the internal controls in these areas.


              The Office of Inspector General has not issued any reports on the
PRIOR AUDIT   Port Authority during the past 5 years. However, in June 1991,
COVERAGE      the Office of Inspector General issued a report on the billing and
              collection functions at the Port Authority, and in December 1998,
              a public accounting firm issued the single audit report on the Port
              Authority for the fiscal year ended September 30, 1998 (see
              Appendix 2).




                            6
RESULTS OF AUDIT
                           The Port Authority needed to improve controls over the
OVERVIEW                   subleasing of its facilities by tenants, the collection of delinquent
                           accounts receivable, and the collection and deposit of parking lot
                           fees. Specifically, we found that the Port Authority did not (1)
                           assess or collect sublease fees of about $10,600; (2) take
                           effective action to collect $1.17 million on 87 delinquent accounts
                           and an additional $909,562 on 31 delinquent accounts that were
                           written off as uncollectible; and (3) have adequate assurance that
                           all fees collected at the airport parking lots were appropriately
                           deposited into the Port Authority’s bank accounts. These
                           conditions occurred because the Port Authority did not always
                           follow the procedures for lease management and collection
                           enforcement contained in its Property Management Manual and
                           did not have written procedures for the write-off of uncollectible
                           accounts and for the collection, deposit, and recording of fees
                           collected at the airport parking lots.


                           Although the Port Authority’s Property Management Manual
LEASE                      (Section 7.2(B)(10)) expressly prohibited the subleasing of
MANAGEMENT                 properties, the Port Authority’s Board of Directors approved
PRACTICES                  subleases on a case-by-case basis. However, the Port Authority
                           did not always obtain copies of sublease agreements approved by
                           the Board of Directors or collect the sublease fees that the tenants
                           were required to pay in accordance with the approvals to enter
                           into sublease agreements. As a result, sublease revenues totaling
                           about $10,600 were not realized for fiscal years 1998, 1999, and
                           2000. In addition, we found that lease agreements were not
                           always executed, tenants did not always maintain required
                           liability insurance coverage, rental increases were not always
                           timely implemented, and quarterly site inspections were not
                           conducted by the Property Management Officers.


Sublease Fees Totaling     The Port Authority’s Director of Property Management provided
$10,600 Not Assessed and   us with the names of four tenants who received approval from the
Collected                  Board of Directors to sublease a portion of their properties.
                           Regarding these four tenants, we found that one tenant was not
                           required to submit sublease information to the Port Authority, one
                           tenant did not have any subleases during the period of our review,
                           and two tenants each had two sublease agreements, for a total of
                           four sublease agreements. As part of the approval process to
                           sublease property, the Board of Directors required the tenants to
                           pay a sublease fee of at least 10 percent of the sublease amount to

                                         7
                      the Port Authority concurrent with the payment of the tenants’
                      monthly rent. However, the Port Authority was not aware of the
                      value of the four sublease agreements because it did not have
                      copies of the sublease agreements. Therefore, the Port Authority
                      was unable to ensure that it was paid the appropriate sublease fee
                      amounts.

                      To determine the value of the sublease agreements, we requested
                      that the Port Authority obtain copies of the sublease agreements
                      from its tenants. Based on our review of the four sublease
                      agreements for fiscal years 1998, 1999, and 2000, we determined
                      that the Port Authority should have received sublease fees of
                      about $12,000. However, the Port Authority received only about
                      $1,400, or a shortage of $10,600.


Sublease Provisions   We found that the Port Authority did not have a standardized
of Lease Agreements   policy for handling the issue of subleases by its tenants. For
Not Standardized      example, the lease agreements for the two tenants who had
                      obtained approval to sublease their rented properties contained
                      different wording with respect to subleasing. One of the lease
                      agreements, which was initially executed in June 1976, stated that
                      the lease "shall not" be transferred "without the prior written
                      consent of the Lessor" but that "such consent shall not be
                      unreasonably withheld." The other lease agreement, which was
                      executed in July 1994, stated that the lease "shall not" be
                      transferred "nor sublet" and that any such transfer or sublet "shall
                      be null and void." We further found that in February 1996, the
                      Port Authority’s legal counsel proposed wording, which was
                      approved by the Board of Directors, to be inserted into Port
                      Authority leases as follows:

                              In the event tenant is granted permission to sublet
                              a portion of the premises, Tenant shall pay to the
                              Landlord, concurrent with payment of Tenant’s
                              rent to Landlord, not less than ten percent (10%)
                              of the total amount Tenant charges subtenant under
                              the sublease. No such sublease shall become
                              effective unless reduced to writing signed by the
                              Tenant and subtenant, and until it shall have first
                              been approved by the Landlord in writing on the
                              face of the sublease, a copy of which shall be
                              given to the Landlord. Tenant and subtenant may
                              not alter, amend or otherwise modify the terms of
                              any such sublease without the express prior
                              written approval of the Landlord. Landlord shall,
                              upon reasonable notice to subtenant, have the right

                                    8
                                  to make demand on subtenant to produce evidence
                                  of all sums paid to Tenant under the terms of the
                                  sublease.

                          Although approved for use by the Board of Directors, this
                          proposed wording has not been used in any subsequent Port
                          Authority leases. In order to strengthen controls in this area, we
                          believe that the Port Authority should develop a standard lease
                          agreement that incorporates the wording proposed by the legal
                          counsel and approved by the Board of Directors in February 1996
                          and should use the lease agreement for all new and renewed
                          leases. In addition, we believe that the Port Authority should
                          update its Property Management Manual by deleting the clause
                          which expressly prohibits subleasing and by inserting a clause
                          which grants the approval to sublease at the discretion of the
                          Board of Directors.

                          Regarding the four subleases discussed in this report, we believe
                          that the Port Authority should attempt to collect the sublease fees
                          of $10,600 that were not remitted to the Port Authority for fiscal
                          years 1998, 1999, and 2000. In addition, the Port Authority
                          should require the tenants to immediately begin remitting at least
                          10 percent of the sublease amount concurrent with payment of the
                          tenants’ monthly rent.


Lease Agreements Not      To determine whether lease agreements were properly executed
Properly Executed or      and were current, we reviewed a judgmental sample of 20 lease
Renewed                   agreements. Of the 20 lease agreements, 9 lease agreements had
                          been properly executed and were current, but 8 lease agreements
                          had expired and had not been renewed, 2 lease agreements had
                          not been fully executed because required signatures were not
                          obtained, and 1 lease agreement could not be located by the Port
                          Authority. Regarding the eight lease agreements that had expired,
                          we found no documentation in the tenant files to indicate that lease
                          terms had been extended or that the Port Authority required the
                          tenants to execute new leases.


Liability Insurance Not   The Port Authority’s Property Management Manual
Obtained by Tenants       (Section 7.2(b)(8)) requires that Port Authority tenants obtain
                          comprehensive, noncancellable general liability insurance
                          policies. In addition, the Manual requires that the Port Authority
                          be named as an additional insured and requires tenants to
                          indemnify the Port Authority against any loss or liability arising
                          from events that occur on the premises. Also, with respect to
                          insurance, the lease agreements generally contained a clause that

                                        9
                          stated, "The Lessee shall deposit with the Lessor a copy of such
                          property insurance policy or policies or a certificate of such
                          insurance coverage." Despite these requirements, we found, for
                          the 20 tenant files reviewed, that 3 tenants had provided the Port
                          Authority with evidence of a valid liability insurance policy and
                          3 lease agreements did not require the tenants to maintain
                          insurance. However, for the 14 other tenants, we found no
                          evidence that they had obtained the required comprehensive,
                          noncancellable general liability insurance policy.


Required Rental Rate      Of the 20 tenant files reviewed, we found that 11 lease
Increases Not Assessed    agreements contained contract language which did not require
                          periodic rental rate increases, 4 lease agreements had appropriate
                          rental rate increases, 4 other lease agreements did not have timely
                          rental rate increases, and the Port Authority could not locate
                          1 lease agreement.

                          Regarding the four tenants who did not have timely rental rate
                          increases, they should have been assessed rental increases in
                          accordance with increases in the Consumer Price Index, but such
                          an analysis was not performed by the Property Management
                          Officers. For example, a transportation company should have
                          been assessed a rental rate increase in November 1999, but the
                          Property Management Officer assigned to this tenant had not
                          conducted the rental increase analysis as of August 2000.


Site Inspections Not      The Property Management Manual (Section 15.1) states that
Performed or Documented   Property Management Officers should visit Port Authority
                          properties on at least a quarterly basis. In addition, the Manual
                          states that a Property Inspection Report Form should be
                          completed for each field visit conducted by Property Management
                          Officers and that a copy of the form should be submitted to the
                          Directors of Administration and Engineering and the Executive
                          Director. However, we found that only 1 of the 20 tenant files
                          reviewed contained a Property Inspection Report Form, which
                          was dated October 28, 1997. Accordingly, we had little
                          assurance that the Property Management Officers were conducting
                          the required site inspections.

                          In August and September 2000, we conducted site visits at Port
                          Authority properties and facilities on St. Thomas and St. Croix.
                          We found that two tenants on St. Thomas appeared to have
                          subleased a portion of their properties without informing or
                          obtaining the approval of the Port Authority. Had the Property
                          Management Officers been conducting routine site visits, as

                                       10
                          required by the Property Management Manual, they most likely
                          would have determined that the two tenants were subletting the
                          properties without the approval or knowledge of the Port
                          Authority.


                          The Port Authority did not effectively carry out collection
COLLECTION                enforcement activities on delinquent accounts. As a result, as of
ENFORCEMENT               April 2000, the Port Authority had 87 accounts totaling about
ACTIVITIES                $1.17 million that were delinquent more than 90 days. In
                          addition, in December 1998 and February 2000, the Port
                          Authority’s Board of Directors approved the write-off of 31
                          delinquent accounts totaling $909,562 because the accounts were
                          classified as uncollectible.


Collection Efforts Not    The Port Authority’s Property Management Manual (Section 12.0)
Pursued on Delinquent     states that the Collection Officer should use the following steps
Accounts Totaling About   for the collection of outstanding accounts:
$1.17 Million
                                  a. Telephone call – to accounts payable section of
                                  entity doing business where invoice remains
                                  unpaid 10 days after issuance of invoice

                                  b. Telephone call – to chief financial officer
                                  where invoice remains unpaid 15 days after date
                                  of issuance

                                  c. Letter of Request – after 20 days invoice
                                  remains unpaid

                                  d. Registered demand letter - after 30 days
                                  invoice remains unpaid

                                  e. Refer to Legal Office - after 40 days invoice
                                  remains unpaid

                                  f. Attorney sends registered demand letter -
                                  45 days after invoice remains unpaid

                                  g. Commence legal action and deny use of
                                  facilities as applicable - 60 days after invoice
                                  remains unpaid

                          In addition, the Manual (Section 15.3) states that a Collection
                          Effort Report Form should be used on a daily basis by the
                          Collection Officer to serve as a record of initial collection efforts

                                        11
                      and as a justification for subsequent legal action to be taken. The
                      Manual also states that a copy of the form should be submitted
                      monthly to the Executive Director.

                      The Port Authority’s Collection Officer retired in June 1992, but
                      the Port Authority did not replace this individual. Instead, the
                      collection activities previously performed by the Collection
                      Officer were transferred to the Director of Property Management
                      and the three Property Management Officers. However, we
                      found that the Director and the Property Management Officers
                      either did not conduct or did not document collection efforts in
                      accordance with the Manual.

                      To determine the collection efforts made and the types of
                      documentation maintained for the 87 delinquent accounts totaling
                      $1.17 million as of April 2000, we reviewed 27 accounts totaling
                      $1.01 million that had delinquent amounts of at least $10,000 for
                      more than 90 days. Of the 27 accounts, we found that only
                      7 accounts had some type of collection activity. Specifically,
                      three accounts were referred to the Port Authority’s legal counsel,
                      three accounts had some type of correspondence prepared by the
                      Property Management Officers requesting payment from the
                      tenant, and one account holder had begun making payments to
                      offset the outstanding amount. For the remaining 20 accounts, we
                      found no documentation of collection activities in accordance
                      with the collection procedures outlined in the Port Authority’s
                      Property Management Manual.


Delinquent Accounts   The Port Authority did not have written procedures regarding the
Totaling $909,562     write-off of uncollectible accounts. Therefore, the Director of
Written Off Without   Property Management periodically made recommendations for
Adequate Collection   the write-off of uncollectible accounts to the Executive Director.
Efforts               We found that in December 1998 and February 2000, the Director
                      of Property Management recommended that 32 accounts totaling
                      $911,497 be approved for write-off. The Port Authority’s Board
                      of Directors approved for write-off 31 of the accounts totaling
                      $909,562.

                      We reviewed the 31 accounts that were approved for write-off to
                      determine the collection activities performed by the Port
                      Authority prior to classifying these accounts as uncollectible. We
                      found that 13 of the 31 accounts contained some type of collection
                      activity, that 13 accounts had no documentation to support that any
                      collection activity was ever undertaken, and that the tenant files
                      could not be located by Port Authority personnel for the remaining
                      5 accounts.

                                   12
                  During the Port Authority’s Board of Directors meeting in
                  December 1998, the Executive Director stated that although the
                  Board could anticipate additional recommendations for the
                  write-off of uncollectible accounts from the Director of Property
                  Management, the Executive Director did not approve of additional
                  write-offs. The Executive Director stated that he did not believe
                  that "sufficient due diligence to collect" on these delinquent
                  accounts had been performed by the Property Management
                  Officers.

                  We concur with the statements made by the Executive Director
                  regarding the lack of collection efforts both performed and
                  documented by the Property Management Officers. In order to
                  strengthen internal controls over the collection of delinquent and
                  inactive accounts, we believe that the Port Authority should either
                  take action to ensure that the Property Management Officers carry
                  out the assigned collection enforcement tasks or consider
                  reimplementing the position of the Collection Officer and
                  removing the collection function from the Property Management
                  Officers.


                  The Port Authority did not have standardized procedures for
AIRPORT PARKING   collecting, depositing, recording, and verifying parking fees at its
LOT COLLECTIONS   airport parking lots on St. Thomas and St. Croix. The airport
                  access system, which machine-stamped onto a ticket the date and
                  time that a vehicle entered and exited the airport parking lot, did
                  not work at the exit locations. As a result, the date and time that
                  a vehicle exited the airport parking lot could not be determined
                  from the used tickets. In addition, because the Port Authority did
                  not issue magnetic card keys to taxicab association members (who
                  were authorized to use the airport facilities) or to other daily
                  users of the parking lots, the access system had to be bypassed to
                  indicate a nonrevenue ticket. Further, the Port Authority’s Internal
                  Auditor did not review the used tickets on a periodic basis to
                  ensure that the value of the tickets used was equal to the amount
                  of funds collected and deposited. Accordingly, there was no
                  assurance that funds collected by the airport parking lot cashiers
                  were appropriately deposited into the Port Authority’s bank
                  account.

                  Because there were no established collection procedures at the
                  airport parking lots, the airport parking lot cashiers used different
                  procedures on St. Thomas and St. Croix. However, in our
                  opinion, neither the collection procedure used at the Cyril E. King
                  airport parking lot on St. Thomas nor the collection procedure
                  used at the Henry E. Rohlsen Airport parking lot on St. Croix

                                13
                                 provided adequate controls to ensure that amounts collected were
                                 appropriately deposited into the Port Authority’s bank accounts.


St. Thomas Parking Fees           At the Cyril E. King Airport on St. Thomas, the cashiers (three
Not Verifiable Based on           shifts per workday) completed a Parking Lot Daily Summary of
Parking Lot Tickets               Collections and Deposits worksheet, prepared a Certificate of
                                  Deposit (deposit slip) for the funds collected during their work
                                  shift, and deposited the funds into the bank depository located at
                                  the airport. The worksheets were forwarded to a Property
                                  Management Officer, who completed a Daily Summary of
                                  Collections and Deposits worksheet, which combined the
                                  collection activities of the three cashiers and provided a
                                  month-to-date collection total. However, these procedures did
                                  not ensure that the funds collected could be verified based on the
                                  parking lot tickets processed by the cashiers. We selected for
                                  review the collection documents related to 7 working days
                                  (May 28 to May 31, 1999 and July 3 to July 5, 1999). The total
                                  funds deposited during these 7 days was $4,512, but the amounts
                                  to be collected based on the parking lot tickets totaled only
                                  $4,156. Although the deposits were $356 more than could be
                                  determined from the used tickets, the potential existed for the
                                  difference to be a cash shortage because controls were not
                                  adequate to ensure that all collections were deposited to the Port
                                  Authority’s account.

                                  We also found that because the access control system did not
                                  work at the exit locations, the cashiers wrote the amount collected
                                  on each ticket or indicated in writing that the ticket was a
                                  nonrevenue ticket. The cashiers told us that a nonrevenue ticket
                                  would result from a taxicab association driver, a daily user of the
                                  airport parking lot who paid on a monthly basis, or a person who
                                  spent less than 15 minutes between the time of entry and exit at the
                                  airport. Based on our review for the 7 workdays in our sample,
                                  we found that the cashiers handled an average of 1,250 tickets per
                                  day but that only about 315 tickets yielded actual cash collections.
                                  Therefore, on a daily basis, about 935 tickets were classified as
                                  nonrevenue. However, there was no way to verify these
                                  classifications.


St. Croix Parking Fees       At the Henry E. Rohlsen Airport on St. Croix, prior to
Also Not Verifiable Based on February 2000, the cashiers did not prepare any documentation to
Parking Lot Tickets          show how much funds they collected. Rather, at the end of each
                             work shift (three work shifts per day), the cashier would place the
                             funds collected and the parking lot tickets in an envelope and
                             would write the amount collected on the outside of the envelope.

                                               14
The envelope was then put into a locked box at the Port
Authority’s Administration Building. The following workday, the
Airport Operations Supervisor retrieved the envelopes from the
locked box; prepared the Daily Summary of Collections and
Deposit worksheet, the Parking Lot Daily Summary of Collections
and Deposits worksheet, and a Certificate of Deposit (deposit
slip); and deposited the funds at the bank. Beginning in February
2000, the cashiers began preparing the Parking Lot Daily
Summary of Collections and Deposits worksheet and the
Certificate of Deposit and began depositing the funds into the
bank depository located at the airport.

We selected for review the collection records for 6 working days
(December 23 and 30, 1998; January 6, 1999; and November 10,
15, and 16, 1999) and found that the cashiers did not write the
amount of funds collected on each ticket, as was done at the
airport on St. Thomas. Therefore, the tickets could not be used to
verify or even to estimate the amounts that should have been
collected.

To strengthen controls in this area, the Port Authority should (1)
repair the access control systems at the Cyril E. King Airport on
St. Thomas and the Henry E. Rohlsen Airport on St. Croix to
provide a method for automatically stamping the date and time of
exit on the parking lot tickets; (2) consider issuing magnetic card
keys to taxicab association members and other daily users of the
airports’ parking lots to reduce the number of nonrevenue parking
lot tickets processed each day; and (3) require the Port
Authority’s Internal Auditor to review, on a periodic basis, the
airports’ parking lot tickets and the certificates of deposit to
ensure that the funds collected are appropriately deposited into
the Port Authority’s bank accounts. Finally, because a primary
method of preventing theft is segregation of duties, we believe
that the collection of the cash and the preparation of the bank
deposits should be performed by separate individuals.




             15
RECOMMENDATIONS
                We recommend that the Executive Director of the Port Authority:
TO THE VIRGIN
ISLANDS PORT            1. Develop and implement a standard lease agreement
AUTHORITY       format to be issued to tenants of the Port Authority. The lease
                agreement should include standard language with respect to the
                subleasing of properties and facilities similar to the wording
                compiled by the Port Authority’s legal counsel and approved by
                the Board of Directors in February 1996.

                        2. Update the Property Management Manual to delete the
                existing clause that prohibits subleasing and replace it with a
                clause that grants the approval to sublease at the discretion of the
                Board of Directors.

                        3. Ensure that Port Authority tenant files contain a copy
                of every sublease approved by the Port Authority’s Board of
                Directors. Also, consideration should be given to creating and
                maintaining a database of sublease agreements to include but not
                be limited to tenant name, tenant address, tenant rental amount,
                tenant lease terms, sublessee name, sublessee rental amount,
                sublease term, and sublease fee. The database should be updated
                periodically to include any new tenants that are approved for
                subleasing.

                        4. Obtain copies of all sublease agreements from current
                Port Authority tenants to determine the amount of sublease fees
                owed the Port Authority and take appropriate collection action.
                Procedures should also be established to require tenants with
                subleases to pay the appropriate sublease fees concurrently with
                regular monthly rental payments.

                         5. Ensure that all lease agreements are current and
                properly executed, that all tenants submit a copy of an appropriate
                liability insurance policy, and that rental rates are timely updated
                in accordance with the changes in the Consumer Price Index.

                         6. Require the Property Management Officers to conduct
                site visits on at least a quarterly basis and to document the site
                visits on Property Inspection Report Forms.

                       7. Either take action to ensure that the Property
                Management Officers carry out the assigned collection
                enforcement tasks or consider reimplementing the position of


                             16
                 Collection Officer and removing the collection function from the
                 Property Management Officers.

                         8. Establish and implement written policies and
                 procedures for the write-off of uncollectible accounts and ensure
                 that "due diligence" has been performed prior to the approval of
                 accounts for write-off.

                         9. Establish and implement written policies and
                 procedures for the collection, deposit, and recording of cash
                 collections at the airport parking lots.

                         10. Repair and/or replace the airport access systems at
                 the Cyril E. King Airport on St. Thomas and the Henry E. Rohlsen
                 Airport on St. Croix to ensure that tickets are machine stamped at
                 the exit locations to indicate the date and time that vehicles exit
                 the airport parking lot. Also, consideration should be given to
                 issuing magnetic card keys to taxicab association members and
                 other daily users of the Port Authority parking lots to reduce the
                 number of nonrevenue tickets processed each day.

                         11. Require the Port Authority’s Internal Auditor to
                 periodically review the tickets and deposits for a sample of
                 workdays to ensure that the funds deposited can be validated by
                 the tickets processed. Also, separate individuals should be
                 assigned to make cash collections at the parking lots and to
                 prepare daily deposits.


                 The March 19, 2001 response (Appendix 3) to the draft report
VIRGIN ISLANDS   from the Executive Director of the Virgin Islands Port Authority
PORT AUTHORITY   concurred with the 11 recommendations and indicated that
RESPONSE         corrective actions had been or would be taken.


                 Based on the response, we consider Recommendation 10
OFFICE OF        resolved and implemented and Recommendations 2 and 3
INSPECTOR        resolved but not implemented. We also requested additional
GENERAL          information for Recommendations 1, 4, 5, 6, 7, 8, 9 and 11 (see
REPLY            Appendix 4).

                 With regard to Recommendation 1, the response stated, "All of the
                 lease agreements sampled [as part of the audit] are agreements
                 entered into before February, 1996. Thus, the Authority feels that
                 it is already complying with this recommendation." This
                 statement is misleading because, although many of the leases we
                 reviewed were dated prior to February 1996, they were for

                              17
current and active tenants of the Port Authority. The Port
Authority did not always execute new or renewal leases for its
tenants when the prior leases expired. Therefore, the most recent
leases available in the files for the majority of current and active
tenants were originally executed prior to February 1996. If the
Port Authority had executed new or renewal leases for active
tenants when the prior ones expired, it could have eventually
updated all of its leases with the proposed standard lease
agreement language.




             18
APPENDIX 1 - MONETARY IMPACT
                                       Unrealized
FINDING AREAS                          Revenues*


        Sublease Fees                    $10,600

        Accounts Receivable             1,166,000

        Uncollectible Accounts           909,562

                Total                  $2,086,162




____________
* Amounts represent local funds




                                  19
APPENDIX 2 - PRIOR AUDIT REPORTS
                             The June 1991 report "Property Management, Billing, and
OFFICE OF         Collection Functions, Virgin Islands Port Authority"
INSPECTOR GENERAL (No. 91-I-939) stated that the Port Authority needed to (1) ensure
REPORT            that all amounts owed by tenants, concessionaires, and others were
                             assessed and collected; (2) enforce collection of delinquent rental
                             accounts; and (3) improve its management of rental properties.
                             During our current audit, we found that the Port Authority
                             adequately assessed amounts owed by users of its aviation,
                             marine, and other facilities but that improvements were needed
                             over the collection of delinquent accounts and the management of
                             rental properties.


                             The December 1998 single audit report of the Virgin Islands Port
SINGLE AUDIT                 Authority, which was conducted by a public accounting firm,
REPORT                       concluded that the financial statements presented fairly, in all
                             material respects, the financial position of the Port Authority as of
                             September 30, 1998. In addition, with regard to the lease
                             management and collection functions of the Port Authority, the
                             report recommended that management (1) establish formal
                             procedures to review and reclassify old outstanding checks, (2)
                             consider whether inactive accounts receivable should be
                             written off, (3) expand the current analysis of accounts receivable
                             past due to include an assessment of the collectibility of these
                             accounts receivable, and (4) consider establishing formal
                             procedures to monitor contracts and commitments.




                                           20
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                   21
     APPENDIX 3
      Page 2 of 21




22
     APPENDIX 3
      Page 3 of 21




23
     APPENDIX 3
      Page 4 of 21




24
     APPENDIX 3
      Page 5 of 21




25
     APPENDIX 3
      Page 6 of 21




26
     APPENDIX 3
      Page 7 of 21




27
     APPENDIX 3
      Page 8 of 21




28
     APPENDIX 3
      Page 9 of 21




29
     APPENDIX 3
     Page 10 of 21




30
     APPENDIX 3
     Page 11 of 21




31
     APPENDIX 3
     Page 12 of 21




32
     APPENDIX 3
     Page 13 of 21




33
     APPENDIX 3
     Page 14 of 21




34
     APPENDIX 3
     Page 15 of 21




35
     APPENDIX 3
     Page 16 of 21




36
     APPENDIX 3
     Page 17 of 21




37
     APPENDIX 3
     Page 18 of 21




38
     APPENDIX 3
     Page 19 of 21




39
     APPENDIX 3
     Page 20 of 21




40
     APPENDIX 3
     Page 21 of 21




41
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference                  Status                      Action Required

 1, 4, 5, 6, 7, 8, 9, and 11   Management     Provide target dates for completing the proposed
                               concurs;       corrective actions. Also, supporting
                               additional     documentation should be provided upon
                               information    completion of the corrective actions.
                               requested.

          2 and 3              Resolved;      Provide this office supporting documentation
                               not            upon completion of the corrective actions.
                               implemented.

             10                Implemented.   No further action is required.




                                              42
 Mission Statement
 The Office of Inspector General conducts and supervises audits
 and investigations of Department of the Interior and insular area
 government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of
   programs and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit allegations
 of any inefficient and wasteful practices, fraud, and abuse related
 to Departmental or insular area programs and operations. You
 can report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                     800-424-5081

               Washington Metro Area                 202-208-5300
               Hearing Impaired                      202-208-2420
               Fax                                   202-208-6023

               Caribbean Regional Office             340-774-8300
               Pacific Field Office                  671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
